                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-279




    Community Based Outpatient

            Clinic Reviews

                   at

   VA Pittsburgh Healthcare System

            Pittsburgh, PA





August 15, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                   Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
             (Hotline Information: www.va.gov/oig)
                                                                CBOC Clinic Reviews at VA Pittsburgh HS



                                           Glossary
                       C&P        credentialing and privileging
                       CBOC       community based outpatient clinic
                       CDC        Centers for Disease Control and Prevention
                       EHR        electronic health record
                       EOC        environment of care
                       FPPE       focused professional practice evaluation
                       FY         fiscal year
                       HS         Healthcare System
                       LIP        licensed independent provider
                       MH         mental health
                       NC         noncompliant
                       NCP        National Center for Health Promotion and
                                  Disease Prevention
                       OIG        Office of Inspector General
                       OPPE       ongoing professional practice evaluation
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                                                              CBOC Clinic Reviews at VA Pittsburgh HS



                                            Table of Contents

                                                                                                                            Page

Executive Summary ................................................................................................... i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics.............................................................................................               7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 4 Director Comments ...............................................................................                    11

  B. VA Pittsburgh HS Director Comments...............................................................                           12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution.............................................................................................            16





VA OIG Office of Healthcare Inspections
                                                         CBOC Clinic Reviews at VA Pittsburgh HS



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Fayette County and Washington County
CBOCs during the week of March 18, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facility. The
C&P, EOC, and emergency management onsite inspections were only conducted at the
randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name              Location
                                           Fayette County         Uniontown, PA
       4        VA Pittsburgh HS
                                           Washington County      Washington, PA
                                     Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients are notified of normal cervical cancer screening results within
    the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians screen patients for tetanus vaccinations.

	 Ensure that clinicians administer tetanus vaccinations when indicated.

	 Ensure that the service chief’s documentation in VetPro reflects documents
   reviewed and the rationale for re-privileging at the Fayette County and Washington
   County CBOCs.




VA OIG Office of Healthcare Inspections                                                       i
                                               CBOC Clinic Reviews at VA Pittsburgh HS


Comments
The VISN and Facility Directors concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 11–14, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                               JOHN D. DAIGH, JR., M.D.
                                             Assistant Inspector General for
                                                  Healthcare Inspections




VA OIG Office of Healthcare Inspections                                             ii
                                                                  CBOC Clinic Reviews at VA Pittsburgh HS



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                                1
                                                                      CBOC Clinic Reviews at VA Pittsburgh HS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                    2
                                                                                                                CBOC Clinic Reviews at VA Pittsburgh HS



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques             Visits
    VISN         Parent Facility                     CBOC Name                 Locality6               FY 20127           FY 20128         CBOC Size9
                                                        Beaver                    Urban                 4,797              20,993           Mid-Size
                                                     (Monaca, PA)
                                                       Belmont                    Urban                 5,092               17,594             Large
                                                 (St. Clairsville, OH)
                                                    Fayette County                Urban                 2,833               15,051            Mid-Size
     4          VA Pittsburgh HS
                                                   (Uniontown, PA)
                                                 Washington County                Urban                 4,697               16,927            Mid-Size
                                                  (Washington, PA)
                                                    Westmoreland                  Urban                 7,135               26,167             Large
                                                  (Greensburg, PA)
                                                                   Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                   CBOC Clinic Reviews at VA Pittsburgh HS



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide. 10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
             X                 Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 35 patients who received a cervical cancer screening at the VA Pittsburgh
HS’s CBOCs.

Patient Notification of Cervical Cancer Screening Results. We reviewed the EHRs of
33 patients who had normal cervical cancer screening results and determined that
7 patients were not notified within the required timeframes from the date the pathology
report became available.




10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.



VA OIG Office of Healthcare Inspections                                                                       4
                                                                 CBOC Clinic Reviews at VA Pittsburgh HS


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

       NC                                       Areas Reviewed
        X           Staff screened patients for the tetanus vaccination.
        X           Staff administered the tetanus vaccine when indicated.
                    Staff screened patients for the pneumococcal vaccination.
                    Staff administered the pneumococcal vaccine when indicated.
                    Staff properly documented vaccine administration.
                    Managers developed a prioritization plan for the potential occurrence of
                    vaccine shortages.
                                          Table 4. Vaccinations

Tetanus Vaccination Screening. Through clinical reminders, VHA requires that CBOC
clinicians screen patients for tetanus vaccinations.14 We reviewed 75 patients’ EHRs
and did not find documentation of tetanus vaccination screening in 14 of the EHRs.

Tetanus Vaccination Administration. The CDC recommends that, when indicated,
clinicians administer the tetanus vaccination.15 We reviewed the EHRs of 61 patients
who were screened and did not find documentation in 7 of the EHRs that the tetanus
vaccination had been administered.

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.

14
   VHA Handbook 1120.05.

15
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.



VA OIG Office of Healthcare Inspections                                                                     5
                                            CBOC Clinic Reviews at VA Pittsburgh HS


Recommendations

2. We recommended that managers ensure that clinicians screen patients for
tetanus vaccinations.

3. We recommended that managers ensure that clinicians administer tetanus
vaccinations when indicated.




VA OIG Office of Healthcare Inspections                                          6
                                                               CBOC Clinic Reviews at VA Pittsburgh HS



                                Onsite Reviews

                         Results and Recommendations

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                      Fayette County                    Washington County
             VISN                             4                                     4
     Parent Facility                  VA Pittsburgh HS                     VA Pittsburgh HS
     Types of Providers       Licensed Clinical Social Worker       Licensed Clinical Social Worker
                                    Nurse Practitioner                     Nurse Practitioner
                                       Psychologist                            Podiatrist
                                        Podiatrist                      Primary Care Physician
                                                                             Psychologist
     Number of MH                            355                                  468
     Uniques, FY 2012
     Number of MH                           1,680                                 1,916
     Visits, FY 2012
     MH Services Onsite                      Yes                                   Yes
     Specialty Care                       Podiatry                             Podiatry
     Services Onsite                        WH                                   WH
     Ancillary Services              Electrocardiogram                    Electrocardiogram
     Provided Onsite                     Laboratory                           Laboratory
                                         Radiology                            Radiology
     Tele-Health                  Care Coordination Home                      Audiology
     Services                            Telehealth                    Care Coordination Home
                                        Dermatology                           Telehealth
                                            MH                               Dermatology
                                          MOVE16                                 MH
                                      Retinal Imaging                           MOVE
                                                                           Retinal Imaging
                                         Table 5. Characteristics




16
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                               7
                                                        CBOC Clinic Reviews at VA Pittsburgh HS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.17 Table 6 shows the areas reviewed for this topic. The CBOCs identified
as NC needed improvement. Details regarding the finding follow the table.

           NC                                        Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                Privileges and Scopes of Practice
     Fayette County      The Service Chief, Credentialing Board, and/or medical staff’s
      Washington         Executive Committee list documents reviewed and the rationale for
        County           conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




17
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                      8
                                                         CBOC Clinic Reviews at VA Pittsburgh HS


        NC                               Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of OPPE activities.
                                          Table 6. C&P

Documentation of Re-Privileging Decisions. According to VHA, the list of documents
reviewed and the rationale for conclusions reached by the service chief must be
documented. We found that one of the three Fayette County LIPs and two of the six
Washington County LIPs did not have the service chief’s documentation in VetPro that
reflected the documents utilized to arrive at the decision to grant clinical privileges to the
providers.

Recommendations

4. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Fayette County and
Washington County CBOCs.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.



VA OIG Office of Healthcare Inspections                                                       9
                                                         CBOC Clinic Reviews at VA Pittsburgh HS


          NC                              Areas Reviewed (continued)
                      Privacy was maintained.
                      Personally identifiable information was secured and protected.
                      Laboratory specimens were transported securely to prevent
                      unauthorized access.
                      Staff used two patient identifiers for blood drawing procedures.
                      Information Technology security rules were adhered to.
                      There was alcohol hand wash or a soap dispenser and sink available
                      in each examination room.
                      Sharps containers were less than 3/4 full.
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles).
                      The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.18 Table 8 shows the areas
reviewed for this topic.

          NC                                      Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




18
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                      10
                                                      CBOC Clinic Reviews at VA Pittsburgh HS
                                                                                 Appendix A
                            VISN 4 Director Comments


               Department of
               Veterans Affairs                              Memorandum


       Date:           July 29, 2013

       From:           Director, VISN 4 (10N4)

       Subject:        CBOC Reviews at VA Pittsburgh HS

       To:             Director, 54DC Healthcare Inspections Division (54DC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)


       I have reviewed the information provided by VA Pittsburgh Healthcare
       System and I am submitting it to your office as requested. I concur with all
       responses and target dates.

       If you have any questions or require additional information, please contact
        Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.




        //original signed by Carla Sivek for//
        Michael E. Moreland, FACHE




VA OIG Office of Healthcare Inspections                                                   11
                                                      CBOC Clinic Reviews at VA Pittsburgh HS
                                                                                 Appendix B
                   VA Pittsburgh HS Director Comments



               Department of
               Veterans Affairs                              Memorandum


       Date:           July 29, 2013

       From:           Director, VA Pittsburgh HS (646/00)

       Subject:        CBOC Reviews at VA Pittsburgh HS

       To:             Director, VISN 4 (10N4)



       1.	 The findings from the CBOC Clinic Reviews at VA Pittsburgh
           Healthcare System by the Office of the Inspector General (OIG)
           conducted the week of March 18, 2013 have been reviewed.

       2.	 Attached are the facility responses addressing each recommendation,
           including actions that are in progress and those that have been
           completed.




             //original signed by//

             Terry Gerigk Wolf, FACHE

             Director





VA OIG Office of Healthcare Inspections                                                   12
                                                   CBOC Clinic Reviews at VA Pittsburgh HS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: April 1, 2013

An existing spreadsheet for tracking cervical cancer screening was revised with sorting
capabilities. This was made available on SharePoint for access by all Women’s Health
Program staff. Laboratory staff corrected a vulnerability with View Alerts to the
providers not always being generated when the cervical screening results were entered
into the EHR. A random sample review of twenty records in April and May, 2013
demonstrated 100% compliance with normal cervical cancer screening results reported
to Veterans within the required timeframe and entered in the EHR.

2. We recommended that managers ensure that clinicians screen patients for tetanus
vaccinations.

Concur

Target date for completion: September 1, 2013

A detailed process for assessing and administering tetanus vaccinations in Primary
Care is under revision. The tetanus clinical reminder was revised March 18, 2013 to
include documentation of the vaccine manufacturer and lot number. Once the provider
makes the assessment that a tetanus vaccination needs to be administered a call will
be made to the PACT registered nurse as the order is being written. The vaccine will
then be administered by the nurse prior to the Veteran leaving the examination room.

3. We recommended that managers ensure that clinicians administer tetanus
vaccinations when indicated.

Concur

Target date for completion: September 1, 2013

A detailed process for assessing and administering tetanus vaccinations in Primary
Care is under revision. The tetanus clinical reminder was revised March 18, 2013 to
include documentation of the vaccine manufacturer and lot number. Once the provider


VA OIG Office of Healthcare Inspections                                                13
                                                     CBOC Clinic Reviews at VA Pittsburgh HS


makes the assessment that a tetanus vaccination needs to be administered a call will
be made to the PACT registered nurse as the order is being written. The vaccine will
then be administered by the nurse prior to the Veteran leaving the examination room.

4. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Fayette County and
Washington County CBOCs.

Concur

Target date for completion: September 30, 2013

A standard listing of VA documents to be considered and the rationale for their use in
the reprivileging process is under development. This list will be used, as applicable, for
the reprivileging of all VA Pittsburgh providers not just those within primary care. A
succinct narrative describing these considerations will be reflected in the commentary
section of VetPro for each provider. This will be a mandatory field to be completed by
the Service Line Vice President in the reprivileging process.




VA OIG Office of Healthcare Inspections                                                  14
                                                       CBOC Clinic Reviews at VA Pittsburgh HS
                                                                                  Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Bruce Barnes, Team Leader
Contributors            Gail Bozzelli, RN
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Donna Giroux, RN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colon, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    15
                                                   CBOC Clinic Reviews at VA Pittsburgh HS
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 4 (10N4)
Director, VA Pittsburgh HS (646/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Robert P. Casey, Jr., Rob Portman, Patrick J. Toomey
U.S. House of Representatives: Michael F. Doyle, Tim Murphy,
Keith J. Rothfus, Bill Shuster


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                16
